No. ________________

In The Supreme Court of the United States
JEROME WILLIAMS,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
Petitioner Jerome Williams respectfully moves for leave to file the attached
petition for writ of certiorari without prepayment of costs and to proceed in forma
pauperis in accordance with Supreme Court Rule 39 and 18 U.S.C. § 3006A(d)(7).
A United States Magistrate Judge found Mr. Williams financially unable to
obtain counsel and appointed the Federal Public Defender for the Northern District
of Alabama to represent Mr. Williams under to 18 U.S.C. § 3006A.
In reliance upon Sup. Ct. R. 39.1 and 18 U.S.C. § 3006A(d)(7), Mr. Williams
has not attached the affidavit that would otherwise be required by 28 U.S.C. §
1915(a) and the rules of this Court.
Respectfully submitted this 14th day of June, 2021.
KEVIN L. BUTLER
Federal Public Defender
Northern District of Alabama
ALLISON CASE
Assistant Federal Public Defender
TOBIE J. SMITH
Appellate Attorney
Federal Public Defender’s Office
Northern District of Alabama
505 20th Street North, Suite 1425
Birmingham, Alabama 35203
(205) 208-7170
Tobie_Smith@fd.org

